<html>
<title> - ``STEM'' THE TIDE: SHOULD AMERICA TRY TO PREVENT AN EXODUS OF FOREIGN GRADUATES OF U.S. UNIVERSITIES WITH ADVANCED SCIENCE DEGREES?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 ``STEM'' THE TIDE: SHOULD AMERICA TRY TO PREVENT AN EXODUS OF FOREIGN 
     GRADUATES OF U.S. UNIVERSITIES WITH ADVANCED SCIENCE DEGREES?

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2011

                               __________

                           Serial No. 112-64

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Available via the World Wide Web: http://judiciary.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-576 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel











                            C O N T E N T S

                              ----------                              

                            OCTOBER 5, 2011

                                                                   Page

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     2
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     4

                               WITNESSES

Darla Whitaker, Senior Vice President for Worldwide Human 
  Resources, Texas Instruments
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Vivek Wadhwa, Director of Research, Center for Entrepreneurship 
  and Research Commercialization
  Oral Testimony.................................................    17
  Prepared Statement.............................................    21
B. Lindsay Lowell, Ph.D., Director of Policy Studies, Institute 
  for the Study of International Migration, Georgetown University
  Oral Testimony.................................................    28
  Prepared Statement.............................................    31
Barmak Nassirian, Associate Executive Director, American 
  Association of Collegiate Registrars and Admissions Officers 
  (AACRAO)
  Oral Testimony.................................................    38
  Prepared Statement.............................................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by Darla Whitaker, Senior Vice President for 
  Worldwide Human Resources, Texas Instruments...................    44
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration Policy and Enforcement.............    48

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration Policy and Enforcement.............   119
Prepared Statement of Compete America............................   126
Prepared Statement of Partnership for a New American Economy.....   128
Letter from the Chamber of Commerce of the United States of 
  America........................................................   131
Prepared Statement of IEEE-HSA...................................   140
Letter from NAFSA: Association of International Educators........   144

 
 ``STEM'' THE TIDE: SHOULD AMERICA TRY TO PREVENT AN EXODUS OF FOREIGN 
     GRADUATES OF U.S. UNIVERSITIES WITH ADVANCED SCIENCE DEGREES?

                              ----------                              


                       WEDNESDAY, OCTOBER 5, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:52 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, King, Poe, Gowdy, 
Ross, Lofgren, Conyers, Jackson Lee, and Waters.
    Also Present: Representative Griffin.
    Staff Present: (Majority) George Fishman, Subcommittee 
Chief Counsel; Marian White, Clerk; and (Minority) Hunter 
Hammill, USCIS Detailee.
    Mr. Gallegly. The hearing will come to order.
    America has many of the finest universities in the world. 
Talented students from around the globe seek to come here to 
pursue their studies. The State Department issued an all-time 
high of over 400,000 new student visas in the year 2010. 
Foreign students can enrich our universities, and after they 
graduate many stay here as workers to help American businesses 
grow.
    Among the cream of the crop are those foreign students who 
receive advanced degrees in what are known as STEM fields: 
science, technology, engineering, and math. One of our 
witnesses today, Darla Whitaker of Texas Instruments, will 
testify as to how these foreign STEM graduates keep American 
companies on the cutting edge. They can also give America a 
competitive advantage. A number of studies have found a 
remarkable level of entrepreneurship among immigrant scientists 
and engineers.
    When foreign STEM students graduate, many want to stay in 
the U.S., at least temporarily. However, according to a survey 
by Vivek Wadhwa, who will be testifying today, most students 
who would like to stay are concerned about finding jobs in the 
U.S. and obtaining work visas. Their anxiety is surely due to 
our depressed economy, the shortage of H-1B visas during boom 
times, and the waiting list for employment-based green cards, 
which seems to grow during good times and bad.
    This issue raises some important questions, including: 
Should we desire that all these foreign graduates remain in the 
U.S.? Should we encourage them to stay by enacting visa reform? 
These are the subjects of today's hearings.
    Mr. Wadhwa worries that the departure of these foreign 
graduates would represent a significant loss for the U.S. 
science and engineering workforce, in which immigrants have 
played increasingly larger roles over the last three decades.
    However, one thing to keep in mind is how American students 
are impacted by our immigration policies. Another of our 
witnesses today, Lindsay Lowell, worries that depressed wages 
and discouraged workers result if supply outstrips demand. He 
writes that ``highly qualified American students may choose a 
non-STEM job because it pays better and offers a more stable 
professional career.''
    And another of today's witnesses, Barmak Nassirian, worries 
that a systemic threat to academic integrity has emerged in the 
form of questionable schools that have managed to establish 
eligibility for participation in Federal student aid as 
collegiate institutions. Could such schools take advantage of 
any decision by Congress to increase the availability of visas 
or foreign students graduating with STEM degrees?
    I look forward to hearing from our witnesses today and 
their diverse and valuable perspectives in today's hearing.
    And, with that, I would yield to the Ranking Member, my 
friend from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Without a doubt, our country came to be the greatest on the 
planet in less than 200 years due to its unique ability to 
attract the best and brightest minds from around the world and 
have them become Americans. The fact that we became the 
strongest economic and military power on Earth was not fate; it 
wasn't an entitlement; it wasn't just given to us. It was 
earned. It was earned by opening our arms to the world's 
political and intellectual refugees, by giving them the freedom 
to take risks and to own their own accomplishments, and by 
having a national identity that welcomed the ``other'' to 
quickly see himself or herself as one of us, as American.
    These national qualities ensured that we were on the right 
side of the global brain drain that has been occurring for the 
last two centuries. But today we find ourselves on the other 
side of the drain. While we once asked the brightest minds in 
the world to come and make their homes here, we now turn them 
away. Having educated and trained the world's best students in 
our universities, we no longer welcome them to enrich this 
Nation.
    To those immigrants who want to start businesses in the 
United States and create jobs here, we tell you to go home. Our 
system has no visas for you; you are not welcome, so please 
start your business someplace else.
    To the growing number of immigrants with advanced degrees 
from U.S. universities in science, technology, engineering, and 
mathematics who want to innovate and incubate new ideas here, 
we say that you, too, are not welcome. Our system is out of 
green cards for the next 10 to 70 years; you will have to wait 
a long time if you want to make a life here.
    The result has been a reverse brain drain, and we have 
reason to fear it.
    Over the last 30 years, advanced degrees issued by U.S. 
universities in STEM fields have been increasingly earned by 
foreign students. In 2009, half to two-thirds of all Ph.D.s in 
physics, computer science, electrical engineering, mechanical 
engineering, and chemical engineering were earned by foreign 
students. And at the master's degree level, the numbers are 
similar, with almost half of all engineering and computer 
science degrees earned by foreign students.
    And, until recently, the foreign students I just mentioned 
have had a profound impact on the U.S. economy and job creation 
in America. Immigrants were responsible for one-quarter of all 
engineering and technology startups created in the United 
States between 1995 and 2005. The vast majority of these 
immigrants had advanced STEM degrees, mainly from United States 
universities. More than half of the startups in Silicon Valley, 
my home, had immigrant founders.
    Immigrants were named as inventors or co-inventors in one-
quarter of international patent applications filed from our 
country in 2006. Due partly to immigration, our country, with 
just 5 percent of world's population, employs nearly one-third 
of the world's scientific and engineering researchers, accounts 
for 40 percent of all R&D spending, and publishes 35 percent of 
all science and engineering articles.
    This leadership in science and technology, according to the 
National Academies, has translated into rising standards of 
living for all Americans, with technology improvements 
accounting for up to half of GDP growth and at least two-thirds 
of productivity growth since 1946. This is because, according 
to the Academies, ``while only 4 percent of the Nation's 
workforce is composed of scientists and engineers, this group 
disproportionately creates jobs for the other 96 percent.''
    Let's throw another statistic into the mix. A recent report 
by the Partnership for a New American Economy, a bipartisan 
group of businesses founded by New York City Mayor Michael 
Bloomberg and the News Corporation's CEO, Rupert Murdoch, found 
that more than 40 percent of Fortune 500 companies were founded 
by immigrants or their children. These companies currently 
generate $4.2 trillion in revenues each year.
    Now, all these statistics make clear that we must find a 
way to keep more of these minds in America. In 2005, at the 
request of Congress, the National Academies issued a very 
sobering report on the country's eroding economic leadership in 
science and technology. The Academies reviewed trends across 
the globe and found that, due in part to restrictive 
immigration policies, the scientific and technological building 
blocks critical to our economic leadership are eroding at a 
time when many other nations are gathering strength. According 
to the report, although many people assume that the U.S. will 
always be a world leader in science and technology, this may 
not continue to be the case, inasmuch as great minds and ideas 
exist throughout the world. ``We fear the abruptness,'' they 
said, ``with which a lead in science and technology can be lost 
and the difficulty of recovering the lead, once lost--if, 
indeed, it can be regained at all.''
    Earlier this year, I introduced H.R. 2161, the IDEA Act of 
2011, to attempt to solve these problems in a holistic fashion. 
The bill seeks to find the right balance of increasing and 
improving the education of American students in STEM fields and 
providing green cards to foreign-born innovators, 
entrepreneurs, and job creators who will help keep America at 
the top of the heap in science and technology. I only raise the 
IDEA Act to show that we can solve these problems in a way that 
creates jobs in America, protects American students and 
workers, and incentivizes them to increasingly enter STEM 
fields for the jobs of tomorrow.
    America's great advantage in the global economy has long 
been our extraordinary ability to innovate and incubate new 
ideas and technologies. And this history of innovation was 
built both by harnessing native-born, homegrown talent and 
fostering and welcoming the best and brightest immigrants from 
around the world who want to come and be Americans here. We 
must find a way to regain that balance.
    And I yield back the balance of my time, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady.
    The gentleman from Texas, the Chairman of the full 
Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    When it comes to STEM fields--science, technology, 
engineering, and math--American universities truly set the gold 
standard. STEM graduates of our universities are behind many of 
the innovations and new businesses that are part of our present 
and future economic growth.
    Talented students from around the world contribute to the 
graduate STEM programs of our universities. In 2009, foreign 
students received nearly 4 out of every 10 master's degrees 
awarded in STEM fields and about the same percentage of all 
doctorates.
    These students have the potential to come up with an 
invention that could save thousands of lives or jump-start a 
whole new industry. They also have the ability to start a 
company that could provide jobs to tens of thousands of 
American workers.
    But what happens to these foreign students after they 
graduate? They are in great demand by the universities 
themselves and by American industries. That is why more than 6 
out of every 10 science and engineering doctoral graduates from 
2002 were still here in 2007.
    However, our immigration system does not always put 
American interests first. We have the most generous level of 
legal immigration in the world. Yet we select only 5 percent of 
our immigrants based on the skills and education they bring to 
America.
    Many people make a compelling argument: Why don't we simply 
offer a green card to any foreign student who graduates from a 
U.S. university with an advanced STEM degree and wants to stay 
in the U.S.? After all, why would we want to educate scientists 
and engineers here and then send them home to work for our 
competitors?
    But we should keep several points in mind. First, all 
graduate degrees are not the same. It takes an average of over 
7 years in graduate school for STEM students to receive a 
doctorate. A master's can be earned in 2 years.
    And when it comes to the proportion of persons who have 
applied for patents, those with doctorates far outpace those 
with bachelor's and master's degrees. Sixteen percent of 
scientists and engineers with doctorates working in STEM fields 
have applied for patents, compared to only 2 percent with 
bachelor's degrees and 5 percent with master's degrees.
    Second, a visa ``pot of gold'' could create an incentive 
for schools to aim solely to attract tuition-paying foreign 
students with the lure of a green card.
    As the former Deputy Assistant Secretary for Visa Services 
at the State Department has warned, ``A school in the United 
States can be found for even the poorest academic achiever. 
Unfortunately, schools that actively recruit foreign students 
for primarily economic reasons and without regard to their 
qualifications or intentions, may encourage such high-risk 
underachievers to seek student-visa status as a ticket into the 
United States.''
    And the Center for Technology Innovation at Brookings warns 
against, ``inducing the enrollment of poor-quality foreign 
students in U.S. higher education institutions simply to obtain 
green cards.''
    However, the choice between sending all graduates home and 
automatically issuing visas to students are not the only 
options available. In 2009, foreign students earned about 
11,000 doctorate degrees in STEM fields from U.S universities. 
With tweaks to our immigration system, we can accommodate those 
graduates whom American universities and businesses most desire 
and who are most able to contribute to our economy.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gallegly. I thank the gentleman.
    We have a very distinguished panel of witnesses today.
    Each of the witnesses' written statements will be entered 
into the record in its entirety. I would respectfully request 
that each of the witnesses summarize his or her testimony in 5 
minutes so we can get on with the questions and answers.
    Sorry that we got a little bit late start. We had an 
overlap with a markup in another Committee, and that is 
unavoidable sometimes, unfortunately.
    Our first witness today is Darla Whitaker. Ms. Whitaker is 
senior vice president responsible for worldwide human resources 
at Texas Instruments, whose incorporated headquarters are in 
Dallas, Texas. Ms. Whitaker has held various positions in human 
resources for Texas Instruments. Prior to her current 
assignment, Ms. Whitaker was vice president and manager of 
compensation and human resource systems and services for the 
company. She is a graduate of Southern Methodist University and 
earned an MBA from the University of Dallas.
    Our second witness is Mr. Vivek Wadhwa. He is a visiting 
scholar at the University of California-Berkley, a senior 
research associate at Harvard Law School, and director of 
research at the Center for Entrepreneurship and Research 
Commercialization at Duke University. He is also a faculty 
member and advisor for Singularity University and columnist for 
The Washington Post and Bloomberg Business Week. He received 
his bachelor's degree from the University of Canberra in 
Australia and received his MBA from New York University's Stern 
School of Business.
    Our third witness, Dr. Lindsay Lowell, is director of 
policy studies for the Institute for the Study of International 
Migration at Georgetown University. He was previously director 
of research at the congressionally appointed Commission on 
Immigration Reform. He was also assistant director for the 
Mexico/U.S. Binational Study of Migration. His research 
interests center on immigration policy, labor force, economic 
development, and the global mobility of the highly skilled. He 
received his Ph.D. In sociology as a demographer for Brown 
University.
    And our fourth witness, Mr. Barmak Nassirian, is associate 
executive director of the American Association of Collegiate 
Registrars and Admissions Officers, a nonprofit association of 
more than 2,300 institutions of higher education. Mr. Nassirian 
has been active in higher education policy for nearly two 
decades, focusing on access and financing issues, educational 
privacy, and Federal regulations.
    So, with that, we will start our testimony from our 
distinguished witnesses with Ms. Whitaker.
    Welcome.

    TESTIMONY OF DARLA WHITAKER, SENIOR VICE PRESIDENT FOR 
          WORLDWIDE HUMAN RESOURCES, TEXAS INSTRUMENTS

    Ms. Whitaker. Thank you, Chairman Gallegly, Ranking Member 
Lofgren, Chairman Smith, and Members of the Subcommittee. I am 
Darla Whitaker. I am senior vice president of human resources 
for Texas Instruments. Thank you for inviting me to speak today 
about how best to retain the talent of U.S. university 
graduates holding advanced degrees in science, technology, 
engineering, and math--the STEM fields.
    While many people think of calculators when they think of 
TI, our primary business is to design and manufacture 
semiconductors or chips. We are, in fact, the world's third-
largest semiconductor company. Texas Instruments is a global 
company with operations in more than 30 countries and 
approximately 34,500 employees worldwide and 10,400 in Texas. 
And with our recent acquisition of National Semiconductor, we 
now have a bigger footprint in the Silicon Valley as well.
    Innovation is the cornerstone of our company. Over the last 
3 years alone, we have invested $5 billion in research and 
development. Texas Instruments has over 60,000 products and 
releases approximately 900 new products each year. And our 
engineers have developed more than 38,000 patents issued 
worldwide.
    TI is fundamentally a company of engineers and scientists. 
Electrical engineers, in particular, are the lifeblood of our 
industry; they are our innovators. To find those innovators, TI 
recruits heavily at top U.S. universities, and our goal is to 
hire and retain the best engineers and innovators from U.S. 
universities. We choose the best, the brightest, and the most 
creative engineering graduates.
    In the past two decades, we have seen some alarming trends. 
While the vast majority of BSEEs graduating from U.S. 
universities are American citizens, the numbers are 
significantly different at the graduate level. The majority of 
those graduating from U.S. universities with advanced degrees 
in electrical engineering are foreign nationals. Of EEs 
graduating from U.S. universities with master's degrees, 55 
percent are foreign nationals, and with Ph.D.s it is 63 
percent.
    TI doesn't choose this pool of graduates, but we do recruit 
from it. And we have also provided you some charts so you can 
see with this information just the breadth of the challenge 
that we face.
    We want innovators to join our company, not on a temporary 
basis, but as permanent employees to provide long-term value to 
our shareholders, our customers, and the community. The 
immigration system allocates insufficient numbers to allow 
engineers and innovators to secure green cards in a reasonable 
amount of time. Some of our employees have to wait a decade to 
get their green cards.
    This is not sustainable. It hurts our company and our 
industry, and it places burdens and stresses on our employees. 
It harms American competitiveness, as other countries move to 
provide easier paths to permanent residents for STEM graduates.
    But it is also easily fixable. By modestly increasing green 
card numbers to allow employers to sponsor graduates of U.S. 
universities holding advanced degrees in STEM fields, Congress 
would vastly improve American competitiveness and secure our 
place as the world's innovation leader. This view is also 
shared by the IEEE-USA, the Institute of Electrical and 
Electronic Engineers.
    It is imperative that the increase not only include Ph.D. 
graduates but master's STEM graduates as well. Among our 
foreign nationals who would qualify under a STEM bill, the 
ratio of master's level engineers to Ph.D. engineers is more 
than four to one. While more Ph.D.s may have their names on our 
38,000 patents, much of the work is done in collaboration with 
our engineers with master's degrees.
    And many master's degrees holders generate patents on their 
own. For example, Sameer Pendharkar, a fellow in our Analog 
Technology Development group, has a master's in electrical 
engineering, and he has contributed 50 patents to TI. A few 
years ago, he was recognized by The Academy of Medicine, 
Engineering, and Science of Texas as a recipient of the 
prestigious Edith and Peter O'Donnell Award, established to 
acknowledge achievements by young researchers in these 
disciplines. And we have many other examples.
    TI is focused on increasing the pipeline of American-born 
students receiving engineering degrees. That is why we are so 
passionate about university funding and STEM education. STEM 
education is our top philanthropic priority. In the past 5 
years, we have invested more than $150 million through TI and 
the TI Foundation to support education in the K-through-12 and 
university levels. Our focus is on improving student 
achievement, teacher effectiveness, and attracting more and 
under-represented groups to STEM fields. I have submitted a 
more comprehensive summary of our activities in this area for 
the record.
    At TI, we know that having the best innovators is the 
foundation of our success and the success of the entire 
semiconductor industry. Thank you for your time and your 
attention and for the opportunity to speak today on this 
important subject, and I look forward to answering any 
questions that you have.
    [The prepared statement of Ms. Whitaker follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Ms. Whitaker.
    Mr. Wadhwa?

  TESTIMONY OF VIVEK WADHWA, DIRECTOR OF RESEARCH, CENTER FOR 
        ENTREPRENEURSHIP AND RESEARCH COMMERCIALIZATION

    Mr. Wadhwa. Thank you for the opportunity to be here.
    I am an Indian immigrant who arrived to the United States 
in 1980. I came here to study; that is what my motivation was 
to come to America. Eventually, I ended up catching the 
entrepreneurial bug that infects many Americans and became an 
entrepreneur. I founded two companies which employed hundreds 
of Americans and made American industry more productive.
    Later in my career, I decided to switch gears and become an 
academic. This was my way of giving back to this great country.
    Mr. Gallegly. I am sorry, Mr. Wadhwa, could you pull the 
microphone a little closer?
    Mr. Wadhwa. All right. Should I start again, or did you 
hear what I----
    Mr. Gallegly. And the light is on. Okay. That is fine. 
Thank you.
    Mr. Wadhwa. Thank you.
    So, anyway, after having been an entrepreneur, I became an 
academic. That was my way of giving back to America. This 
country had done so much for me that I wanted to contribute 
back.
    And as an academic at Duke University, I started 
researching globalization, what is happening abroad. In a 
nutshell, my research has shown me that we are totally out of 
touch with the realities of the world; that America relies upon 
academics to do research studies. What do academics do? They 
look at data that the government puts out and analyze them in 
50 different ways and put out academic studies. And they 
publish more academic studies based on what other academics 
have done.
    That is not the reality. If you want to know what is 
happening abroad, you have to go to other countries, you have 
to go to India and China, you have to hang out with students, 
you have to hang out with entrepreneurs, you have to hang out 
and understand what is happening there. And that is what I have 
been doing most recently.
    I was at Tsinghua University 2 weeks ago teaching Chinese 
students about entrepreneurship. I went there on behalf of 
U.C.-Berkeley. And I have been going to China for the last 5 or 
6 years quite regularly. And I have been going to India, as 
well. I was blown away with how much has changed over the last 
5 years. These students were just like the students I teach at 
Stanford, Berkeley, Duke, and the other universities I give 
lectures at. They are exactly the same as we are. They are not 
burdened by the past. They think like we do. They want to be 
like us.
    I asked the students how many of them wanted to come and 
study in America. The majority of them do. I asked them how 
many of them wanted to stay in America. None of them did. And 
when I asked them why, it was all of them have heard horror 
stories from their friends who came back from America about the 
fact that they couldn't get visas and that employers wouldn't 
look at them because they couldn't--so they couldn't get jobs. 
They have gone back and have changed the mindset of students 
over there.
    It is the same in the USA. I teach at the Duke Master of 
Engineering Management program, some of the finest in the 
country. I used to ask students, when I joined Duke University, 
what their intention was about staying here. When I would ask 
them, how many of you plan to stay, nearly everyone would raise 
their hands. I ask the same questions to these students every 
time I visit Duke now, and they ask me, well, what do you mean, 
Professor, ``stay''? I said, well, do you want to become an 
American? They sort of laugh at me, and they wonder what I am 
talking about. And they also ask why, when the opportunities 
are so much greater for them back home, that they can get 
better jobs, they feel wanted, and there are great 
opportunities for them back in their home countries.
    So while we sit here and debate whether we want these kids, 
they are sort of wondering, you know, why should they even 
stay, because there are so many great opportunities back for 
them at home.
    If you read academic reports, they talk about all the 
hurdles to entrepreneurship in India and China--again, totally 
out of touch with reality. You have to go to Beijing or 
Bangalore or Shanghai and hang out in the Internet cafes over 
there, hang out in the coffee shops, and see what happens over 
there. It is the same vitality, the same energy you see in 
Silicon Valley. These kids are buzzing with activity. They want 
to change the world. They have learned from us our best--the 
way we think, the way we do business, and they are trying to be 
like us.
    Now, the big thing that happened in India and China over 
the last 5 years is that there was a flood of returnees going 
back home. Tens of thousands of really bright Americans--sorry, 
American immigrants who went back because they had to. They 
were stuck in limbo or they saw greater opportunities back 
home. They have gone back to India and China and changed the 
culture over there. They have now taught the locals all about 
the American ways, and they built the ecosystem so that 
entrepreneurship is flourishing in those countries. So we are 
losing out here.
    My research team has documented a lot of the stats that 
Representative Lofgren cited. For example, we documented that 
52 percent of startups in Silicon Valley are founded by 
immigrants. We also looked at the backlog in the visa system. 
You know, we keep focusing on the illegal, undocumented workers 
that came to America, the 12 million, 10 million, whatever the 
number might be. We don't seem to be aware of the fact that 
there are 1 million skilled immigrants in the United States who 
are here legally--doctors, scientists, researchers, academics, 
who are here legally, who are stuck in limbo. There are no 
visas for them.
    Indeed, Stuart Anderson published a report today which 
shows that the backlog for Indians right now is 70 years. So my 
Duke Master of Engineering Management students who graduate 
today, if they file for a green card, it will take them 70 
years, the rest of their lives, to get residence. So why should 
they even consider staying over here?
    So what is happening is that we have a massive reverse 
outflow. The government data does not show it. In fact, there 
was a joke of a paper by the National Science Foundation which 
compared the stay rates of Ph.D.s in 2002 to 2004, and they 
said, hey, there is no problem, we are in great shape. But what 
they don't seem to realize is that we are looking at the batch 
of 1994, people who came in 1994 when America was the land of 
opportunity. I came here in 1990, when this was the only land 
of opportunity. There was nothing else in the world but 
America. So we are looking back 20 years and saying, everything 
is okay.
    We keep looking at all these numbers, as my colleague is 
going to do, and we say, you know, we are in great shape, just 
close the doors, we don't need more engineers and scientists. 
We are out of touch. We are in a knowledge economy. It is all 
about competition. If we don't keep these people, if we don't 
compete, we are going to lose. We are going to become a Third 
World country, and they are going to become like us. That, in a 
nutshell, is what I want to say.
    I can prescribe fixes here, but it is really a numbers 
game. We have to increase the number of visas available. We 
have to admit students to stay. Not that if we gave all these 
students visas, they would stay; they would still want to go 
back home. But it becomes harder once you have worked in 
America for a few years to go back home because you fall in 
love with this great country.
    We have to fix the obvious problems, and we will fix the 
system.
    [The prepared statement of Mr. Wadhwa follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Mr. Wadhwa.
    Mr. Lowell?

   TESTIMONY OF B. LINDSAY LOWELL, Ph.D., DIRECTOR OF POLICY 
 STUDIES, INSTITUTE FOR THE STUDY OF INTERNATIONAL MIGRATION, 
                     GEORGETOWN UNIVERSITY

    Mr. Lowell. I would like to thank the Chairman and the 
Members of the Subcommittee for inviting me to testify today.
    Immigrants in science and engineering benefit the U.S. 
economy. I am third-generation and was raised by my Romanian 
grandmother. My father was a biochemist who started a 
laboratory and held several patents. His drive makes it easy 
for me to visualize how the immigrant experience benefits us 
and of the uniqueness of such individuals.
    I was also raised in California during the NASA space race 
and saw how the industry's ups and downs affected the 
workforce. I believe that demand-side policies will be most 
successful in boosting the S&E workforce. I think the challenge 
of a competitive policy is regulations that admit the best and 
brightest.
    First, the domestic student pipeline isn't broken. When my 
colleagues and I looked into concerns about the pipeline, we 
were surprised to find many were misplaced. We found that we 
have a large student body and a small S&E workforce. We average 
more domestic S&E graduates than past or projected annual S&E 
job openings.
    International test averages can mislead. Individual U.S. 
states test better than smaller nations. National testing shows 
improvement. We are a large nation with a lot of students in 
the upper tails of test score performance.
    Student interest in S&E has been steady for decades. 
Surveys of incoming college freshmen and my research shows a 
pretty steady flow through the pipeline. All together, these 
trends suggest a steady supply and improvement.
    Next, the S&E labor market is not tight. Economists say if 
demand outstrips supply, wages escalate to address the 
shortage. That is a tight labor market. If there is a plentiful 
supply of labor, wages will be lower. That is a loose market. 
Consider these indicators: There is a poor retention of S&E 
workers. Workers in S&E jobs are about one-third of persons 
with an S&E degree. I have explored broader S&E-relevant jobs 
definitions and still find retention problems.
    There has been a boomlet of S&E immigrants. The high 
percent of immigrants in S&E has many causes. What it clearly 
suggests is that policy provides a very significant addition to 
available labor.
    S&E wages lag alternative professional jobs. I cite four 
studies in my written testimony that find S&E wage growth has 
slowed or is less than that of comparable professions. These 
indicators suggest that today's S&E market is loose.
    The best and the brightest are not about more, and it is 
not easy. Of course, job supply is not a zero-sum game, and the 
supply of immigrants might boost the opportunities for domestic 
workers. But that is not the entire story. Less well understood 
is the nature of immigrant selectivity or those few who are the 
best. In a competitive, globalizing world, getting that certain 
X factor should be what policy is all about.
    Globalization affects the selectivity of Nobel Prize 
winners. Globalization has led to a decreasing percent of 
immigrants among those prize winners. Globalization works 
against selectivity by flattening borders.
    And it takes time to grow an entrepreneur. They have been 
here for decades, mostly. Some were previously students who 
became green-card holders. Selectivity operates here, as well. 
Consider the difficulties that Australia had with awarding 
permanency to foreign graduates. Still, data from 2008 show no 
decline in foreign student or U.S. worker stay rates, albeit we 
have no recent precise data on changes in the last couple of 
years.
    How many inventors and entrepreneurs? Census data on the 
S&E workforce and immigrant entrepreneurs indicate that one has 
to admit many immigrants to get entrepreneurs in a few 
metropolitan areas. In short, selectivity is a chore.
    In summary, a generous number of S&E migrants have been 
admitted, and, as the system is currently structured, that will 
continue. There is little evidence that our pipeline produces 
too few domestic students, and employment opportunities are not 
as strong as they could be.
    Nevertheless, today's admission system clearly is faulty, 
and targeted changes should be made. I suggest three 
principles.
    First, changes should be careful not to significantly 
increase admissions--not decrease, that is not in the cards, 
but not increase. America's competitive advantage is best 
served by spurring domestic demand. Expanded temporary programs 
inevitably crowd adjustments to permanent status, and that 
merry-go-round is a fundamental problem here.
    Second, uniquely innovative people are not common, and 
policy should be selective. Keeping employers in the driver's 
seat but providing different mechanisms is a good idea for 
admission.
    Third, policy should be fair while being selective. There 
are a lot of good candidates in the backlog. Time in temporary 
status is likely to impair while permanent status will improve 
migrant productivity. Working out the backlog with a preference 
for the S&E workers who are already here helps address 
bottlenecks while maintaining selectivity.
    Again, I want to thank the Committee. It is well versed in 
many of these ideas, and my purpose here is not to detail 
specific recommendations but to provide information. Thank you.
    [The prepared statement of Mr. Lowell follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Lowell.
    Mr. Nassirian?

 TESTIMONY OF BARMAK NASSIRIAN, ASSOCIATE EXECUTIVE DIRECTOR, 
 AMERICAN ASSOCIATION OF COLLEGIATE REGISTRARS AND ADMISSIONS 
                       OFFICERS (AACRAO)

    Mr. Nassirian. Mr. Chairman, Ranking Member Lofgren, thank 
you for the opportunity to participate.
    I am here in a purely ministerial and technical role. We 
are not participants in development of immigration policy at my 
organization. But to whatever extent the Subcommittee 
contemplates a credentials-driven set of immigration policy 
changes, we suddenly take notice and become very interested 
just because my membership is in the business of producing and 
consuming academic credentials. I represent registrars and 
admissions officers.
    With regard to the conversation you are having today, we 
would only bring to your attention two cautionary notes: one 
having to do with the very distinct probability of abuse with 
regard to any system that ties such a rich reward as permanent 
residency in the United States to academic credentials; and, 
second, the very predictable unintended consequences of, again, 
tying something as marketable and as valuable as residency in 
the U.S. to credentials.
    So let me very briefly touch on the two topics. This is not 
pro or con whatever the substantive judgment of the 
Subcommittee may be with regard to immigration policy. We hope 
you do pay some technical attention to some of the details.
    Regarding abuse, we have a----
    Mr. Gallegly. Could you pull it just a little closer? That 
is better.
    Mr. Nassirian. It is not going to get any closer than this, 
though. Okay.
    With regard to abuse, we are very concerned about the terms 
and conditions of recognition for whatever credentials the 
Subcommittee decides to single out for any kind of preferential 
treatment. We talk about ``STEM'' fields with a certain kind of 
intuitive understanding of what we are talking about, but I 
want to make sure you realize--again, my folks think in almost 
computer-programmer precision when you say ``major.''
    There are numerous groupings of academic disciplines that 
various governmental bodies have decided to include under the 
heading of ``STEM.'' The National Science Foundation includes 
behavioral sciences under that heading. Even the tightest-drawn 
definition of science, technology, engineering, and math will 
group together extremely heterogenous fields. You know, I don't 
know how many more cosmologists we may need. It may be that we 
are very short of electrical engineers.
    But some serious attention needs to be paid to what 
qualifies, because, again, the possibility of both abuse and 
unintended consequence will result. The more imprecision there 
is to the grouping of disciplines that the Subcommittee 
includes in its definition of ``STEM,'' the more likely the 
probability of abuse and unintended consequence. So we urge you 
to pay some attention to that.
    And, obviously, the primary motivation ought to be what 
drives the identification of the field. I want to make sure you 
are aware that we have a very technical classification system 
for identifying academic fields in this country called the 
Classification of Instructional Programs, CIP. This is they 
system we all use, including Homeland Security and ICE and all 
of higher ed. But even that precise system is highly 
susceptible to gaming, because all it takes to put a new CIP 
code on the books is three credentials offered across the 
United States. So it is very easy to segue from something that 
you and I and any reasonable person would include under the 
heading of ``STEM'' to things that you may be horrified to find 
out someday have now been subsumed under that heading.
    That is one area.
    The issue of the kinds of practices that institutions are 
likely to engage in is something that the Subcommittee should 
pay very close attention to. We are very concerned about the 
use of commissioned agents overseas, even today, for purposes 
of providing temporary visas to foreign students. And you can 
only imagine what is going to happen overseas if something, 
again, as rich as American residency gets tied to credentials. 
So some attention has to be paid to the overseas practices of 
institutions.
    Some attention has to be paid to what is an institution of 
higher education. There are multiple definitions. And, 
candidly, ICE has much broader definition than even Title IV, 
Department of Education. And, in candor, the Department of 
Education's list is nothing to write home about if you begin to 
dig into it. So you may want to pay some attention to what you 
have in mind for institutions.
    And, finally, in terms of unintended consequence, be 
mindful of what happens to qualified American students in these 
fields. And be mindful of the very likely outcome of 
overproduction. That overproduction may sound like no big deal, 
but if you create a very rich freebie from the immigration 
policy side, you may inadvertently create cost-drivers that 
will continue the escalating tuition inflation that we have 
been battling for the last three decades.
    Thank you very much for the opportunity.
    [The prepared statement of Mr. Nassirian follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you, Mr. Nassirian.
    Ms. Whitaker, could you tell the Committee how it would 
impact TI if you could no longer recruit foreign STEM graduate 
students?
    Ms. Whitaker. Chairman Gallegly, that would have a huge 
impact on us because we have to focus on innovation and 
creativity and developing new products. And a huge number--you 
can see from the chart that I submitted, more than half of the 
graduate students in electrical engineering, so 55 percent of 
the master's and 63 percent of the Ph.D.s in electrical 
engineering, are foreign nationals.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Ms. Whitaker. And so, if we were no longer able to recruit 
foreign nationals, we would not be able to fulfill the needs 
that we have as a company.
    And even worse yet, I think those students would then go to 
our competitors overseas, where they could work. And I think 
that would be a huge travesty to Texas Instruments and our 
industry.
    Mr. Gallegly. What percentage of TI's electrical engineers 
have graduate degrees as opposed to a bachelor's degree?
    Ms. Whitaker. The majority of the students that we hire are 
bachelor's degrees, about 55 percent. And so 45 percent of them 
are Ph.D.s and master's degrees. TI's policy is not to hire 
foreign nationals for bachelor's degrees because we don't need 
to. And so we don't sponsor foreign nationals at the bachelor 
degree level. But we do, because we must, at the master's and 
at the Ph.D. level.
    Mr. Gallegly. Thank you.
    Mr. Lowell, you stated in your testimony that STEM jobs 
used to pay better than alternate careers, such as lawyers, 
accountants, but now they pay less. What do you attribute that 
to? What is your assessment of that?
    Mr. Lowell. I am going to play a good academic; I don't 
think we have a good answer to that question. It is speculated 
that has been the increase of the foreign-born. It is 
speculated it is due to outsourcing. We don't know precisely.
    What I think it is consistent with, and that is what I 
think we can strongly say, is that it shows that the labor 
market is a little soft. That means that, you know, there is no 
clear evidence of strong shortages. That is speaking across the 
entire STEM labor market, which is a broad thing.
    Mr. Gallegly. Mr. Nassirian, would you be leery of advanced 
STEM degrees offered through the Internet?
    Mr. Nassirian. It would be problematic.
    Mr. Gallegly. Would you like to----
    Mr. Nassirian. Well, the Internet is a mode of delivery, so 
I don't want to condemn--the mode of delivery isn't really the 
issue. The issue is the growth of entirely online institutions 
that are really Web sites that have been allowed to move up the 
food chain. Institutions that, a few decades ago, were 
certificate-granting vocational venues have almost, sort of 
without notice, moved up into degree-granting and now doctoral 
institutional status.
    And that is of concern, because when we talk about STEM 
fields, and particularly in this context--which, candidly, I am 
not very familiar with--but if we are talking about the context 
of economic growth, you are presumably speaking about research 
institutions. And it is very difficult to conceptualize an 
entirely online research----
    Mr. Gallegly. Would you say it invites mischief?
    Mr. Nassirian. And outright criminality, quite frankly.
    Mr. Gallegly. You raise concerns in your testimony about 
for-profit universities, but can abuses also occur in nonprofit 
universities?
    Mr. Nassirian. Absolutely.
    Mr. Gallegly. And maybe you could give us a little more 
thought on that, nonprofits verus profits, if there is any 
difference.
    Mr. Nassirian. Well, it is basically a tax difference, 
frankly. It is not--and I want to--in full disclosure of my own 
status, some 9 percent of my members are for-profit 
institutions. So, you know, just for the record.
    The concern here is the monetization of the sovereign 
prerogative of the American Government to decide who comes here 
by institutions. To whatever extent--you know, the profit 
motive is a very powerful incentive, so, naturally, you would 
be much more likely to find embellishments and maybe outright 
abuse where, you know, the profit motive may drive people to do 
things they probably shouldn't.
    We have seen that in Title IV, certainly. A 
disproportionate number of defaults are associated with the 
for-profit sector, and complaints in general just far outstrip 
complaints about nonprofits.
    But I want to, in full fairness, point out that there is a 
tremendous likelihood that the nonprofits are also going to 
move to take advantage of any benefits. And that may not be--
there are pros and cons here. On the one hand, maybe the 
addition of vastly higher-quality students to the system will--
you know, the rising tide will lift all boats. So maybe 
institutions that are now not necessarily the best research 
venues get better students and become better research venues.
    But, on the other hand, there is also a very distinct 
possibility that that will result in cost inflation, that 
everybody well seek to become, you know, Harvard as opposed to 
what they are really good at. And that may not be to the 
benefit of the Nation, because we need teaching venues, we need 
community colleges, we need places that are a good fit for the 
populations they have historically served.
    So that is one of our concerns, is that the Judiciary 
Committee or this Subcommittee inadvertently sort of writes 
education policy that may adversely impact American students.
    Mr. Gallegly. Thank you very much, Mr. Nassirian.
    Ms. Lofgren?
    Ms. Lofgren. Thank you, Mr Chairman.
    Before asking my questions, I would like to ask unanimous 
consent to place in the record a speech by Mayor Bloomberg 
regarding this topic; a letter from the American Council on 
International Personnel about today's hearing; and two recent 
studies authored by Stuart Anderson and the National Foundation 
for American Policy.
    The studies, one titled ``Keeping Talent in America,'' and 
the other, ``Waiting and More Waiting: America's Family and 
Employment-Based Immigration System,'' have found that Indian 
nationals in the employment-based third preference category 
will wait for up to 70 years for a permanent resident visa.
    So I would ask unanimous consent that those items be placed 
in the record.
    Mr. Gallegly. Without objection.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________

    Ms. Lofgren. First, before I ask any questions, I would 
like to thank all of the witnesses for being here today and for 
their expertise and the thoughtful statements you have made.
    As many of you know, I introduced a bill a short while ago 
that addresses a whole multiplicity of issues, including the 
need to keep master's and Ph.D. students who can create jobs 
here and a number of--reforming the H-1B program to make it 
truly a temporary program and to make sure that H-1B visa 
holders aren't underpaid, undercutting the whole market. I 
think it is a good package, and I would like to recommend it to 
all of you.
    One of the issues I wanted to mention--and it really goes 
to the study I have just talked about--has to do with the per-
country limitation as it relates--well, it is a problem on the 
family side as well, but on the employment side. If you take a 
look--for example, Iceland. A great country, I am sure. The 
population is about 300,000 people. They have the same number 
of visas as India, with a population of 1.1 billion. So it is 
no wonder that this doesn't work very well. And it needs to be 
fixed.
    However, the study shows us that just eliminating those 
categories is not going to fix it. Because if it is 70 years 
under the current system, if you eliminate the caps it is 12 
years for everybody. And I don't think 12 years is competitive 
with the rest of the world--not with Canada, not with 
Australia, not with the people who are competing for the very 
people we are trying to get to stay here, build companies, and 
create jobs. So I just wanted to mention that.
    I had a bill a couple of years ago with Congressman 
Goodlatte to do the elimination of per country limits, but we 
had a companion bill with Congressman Sensenbrenner to 
recapture unused visas. And it was the two together that 
actually worked.
    I want to thank--also, I see the IEEE is here today. And I 
want to thank SIA and the IEEE for the leadership that they 
have shown in putting together proposals to make this whole 
system work. As well as the testimony, Ms. Whitaker, about the 
need for master's degrees, not just Ph.D.s, I think that is 
key.
    Now, I wanted to ask you, Mr. Nassirian--your comments were 
very, very helpful. In the bill that I introduced, we don't 
want the system to be gamed. What we want--I mean, if you just 
got your Ph.D. in electrical engineering from Stanford, there 
is a good bet we might want to you to stay here and build some 
companies. It is not the ``Fly-by-Night U.'' guys that we want.
    And so what we put in was, we have the National Science 
Foundation certify research universities. Right now the 
Carnegie Institute does that. And I envision that the National 
Academies and Carnegie and others might provide advice to the 
Science Foundation. But it is about 200 universities in the 
United States, and I really think that is all it should be. 
Because that is the group--this isn't an education bill; this 
is about jobs for Americans.
    And do you think that that would solve the issue that you 
have identified?
    Mr. Nassirian. Representative Lofgren, all of these 
institutions are my members, and they are all above average. So 
I----
    Ms. Lofgren. Right. Maybe that is not a fair question to 
ask.
    Mr. Nassirian [continuing]. Shouldn't be in the business of 
separating 200 of them from the rest.
    But I would suggest, first of all, if you assigned a task 
to the--it is vexing, because there was a multiyear effort by 
the National Research Council to create rankings, something as 
seemly simple as rankings, of graduate programs. They produced 
one of the most confusing, four-dimensional----
    Ms. Lofgren. No, but I don't rankings.
    Mr. Nassirian [continuing]. Matrices I have ever seen. And 
nobody can agree on what the rankings should be.
    Ms. Lofgren. If you can get an award for research as a 
research university in the hard sciences--and your testimony on 
what is ``STEM'' is very helpful and needs to be addressed. 
That is very different than, you know, you would like to be a 
hard-science school.
    Mr. Nassirian. Sure. I suspect there are ways of 
legislatively defining, as opposed to simply handing it to an 
agency. Remember, NSF, as I just mentioned, actually includes 
behavioral sciences in its definition.
    Ms. Lofgren. Yes. We need to give guidance on what we want. 
I love poetry, but we are not trying to keep the poets here.
    Mr. Nassirian. The policy incentive ought to be--there are 
ways of legislatively framing certain kinds of de minimis 
research activity before an institution becomes eligible.
    I suggest that it has to be legislative because if you 
assign it to an agency, the institution that missed the 200 
mark by 1 ticker will argue for perpetuity that they really 
ought to have been on the other side of the law.
    Ms. Lofgren. Yeah.
    Mr. Nassirian. So there are ways of defining it, I suspect, 
through some kind of ratio analysis.
    Ms. Lofgren. Yes. I see that my time--I have so many 
questions, Mr. Chairman. Maybe we will do a second round.
    But I am hopeful that we can come together and do something 
with green cards for the top graduates who will create jobs, 
that we can do something that addresses the inequity on the 
per-country issue by not only eliminating it but providing 
enough visas so it actually will work and allow America to be 
competitive, along with the other reforms that are necessary in 
the temporary H-1B program that I think are essential to have 
credibility.
    So, with that, Mr. Chairman, I would yield back in the 
hopes that we will have a second round.
    Mr. Gallegly. The gentleman from Texas, Mr. Smith.
    Mr. Smith. Mr. Chairman, I am happy to have the gentleman 
from Iowa, Mr. King, ask his questions. Then I will ask mine in 
sequential order.
    Mr. Gallegly. Okay.
    Mr. Smith. Thanks.
    Mr. King?
    Mr. King. Thank you, Mr. Chairman.
    I thank Chairman of the full Committee, Mr. Smith, for 
giving me this opportunity.
    I appreciate the testimony of the witnesses.
    And I am just sitting here thinking, we are often looking 
at immigration policy piecemeal, and how does it fit in to the 
whole? And we are often also looking at the arguments that are 
the strongest to make changes in the current policy that we 
have. And I think that this argument that you have made here is 
one of the strongest arguments to make those changes.
    I would direct my first question to Mr. Lowell, I believe, 
and that would be this: that we bring into this country, on 
average, legally, over a million people a year--by far the most 
generous nation on Earth, and we all know that.
    The advocacy that comes with, not a bill underneath us, but 
a concept here, would you endorse the idea of increasing H-1Bs 
within these categories that you all testified about if we 
offset and reduced those numbers from other visa categories?
    Mr. Lowell. If that were doable. I am not sure that it is.
    Mr. King. Well, this is Congress, so, yes.
    Mr. Lowell. Well, I mean, having said that, I think the way 
I read the data is that permanent status tends to produce the 
best long-term results for immigrants. And I think that tends 
to be the best thing that employers are looking for.
    It is kind of a tight walk. I mean, we do need the 
temporary workers. There is a reasonable and a rational demand 
for H-1Bs. But when you don't have enough slots in the 
permanent side to absorb them, you are going to be constantly 
in a problem. Because most people who come here and stay 6 
years, they are going to want to stay, and employers are going 
to want them to stay because they have invested in them. So I 
think it is kind of tough to up the ante on that problem.
    Mr. King. Well, thank you, Mr. Lowell.
    Mr. Wadhwa, you have looked at the psychology of this, and 
that is the heart of the testimony that you have given us. A 
lot of young people with good degrees want to go back to their 
home country for the reasons that you have described.
    But from the psychology of this from the other side, we are 
looking at a national policy, and I am going to advocate this: 
that if you look at the growth in our jobs in this country 
prior to the downward spiral, it is directly proportional to 
the legal immigration that has come into the country. In other 
words, illegal immigrants have used up, swallowed up every new 
job that has been created by this economy in the decade prior 
to the downward spiral.
    And so, in a nation that is that generous, would you 
support the idea of reducing some of the other categories in 
order to be able to accelerate toward citizenship some of the 
people that fit within this STEM definition that is part of our 
discussion today?
    Mr. Wadhwa. In the short term, the challenge is the million 
who are stuck in limbo who are going back and fueling our 
competition. We have to keep them here somehow. Because they 
are Western-educated, Western-skilled, and they are in very, 
very high demand.
    So, first, let's figure out how to keep those people here, 
even if we do a one-time deal to legalize those people. I have 
suggested that if you said anyone who is here legally in that 
million, anyone who buys a house can get a green card 
immediately, that is one way. If they start a company--you 
know, for example, we need a startup visa very badly. If they 
start a company which employs more than five Americans in the 
next 3 years, they can get a green card.
    So if we can do a quick fix to take care of that million--
in the long term, yes, we do have to look at the system overall 
and juggle, do we need more of A or do we need more of B? At 
the end of the day, we are competing. The world has changed. It 
is not just--you know, we can't be as magnanimous as we have 
been in the past. We have to look after our own selfish 
interests, which means we have to figure out how we are going 
to grow our economy, how we are going to boost economic growth, 
how we going to retain our competitive edge.
    Mr. King. If I could interrupt you for a moment, the words 
``selfish interest,'' I would like to explore that a little bit 
because I think our immigration policy should be selfish. I 
think it should be designed to enhance the economic, the social 
and the cultural well-being of the United States of America, 
and any other nation, Iceland included, should establish a 
policy for the same merit. Do you agree with that?
    Mr. Wadhwa. I agree with that 100 percent. It is all about 
America and America's long-term growth. It is not about doing 
good for the world. We need to do that also, but that is not 
what immigration policy is for.
    Mr. King. Then I would return to Mr. Lowell, and I would 
ask you if you care to comment on that. There are several 
countries in the world who have either established a policy or 
are in the process of working toward one.
    I remember a hearing we had about 3 years ago on this 
Committee. It was on a merit system. These were all--it was 
Australia, Canada, the United Kingdom, either establishing a 
policy or working to establish a policy that set up a point 
system that scored five different categories of potential 
immigrant.
    One was age. Bring them in while they are young enough that 
they can pay enough taxes to justify paying them Social 
Security when they are older.
    Another one was education and the level of education skills 
they bring in.
    The third one was job skills. Earning ability. That would 
be three and four.
    And the fifth one was language skills, which is an 
indicator viewed by those countries as the ability to 
assimilate into the broader culture.
    Could you support a proposal that would do that and a point 
system that would bring people in based on merit?
    Mr. Lowell. I mean, part of my point is exactly you need to 
set up some kind of selectivity mechanism. Just admitting 
migrants and more migrants is no guarantee that you are going 
to get the best and brightest. In part, that is what the 
discussion here is about in terms of masters versus Ph.D.s.
    You know, I am not necessarily a fan of point systems. And 
the reason is, if you think about it, the United States already 
constrains certain occupations. Usually there is an 
occupational minimum and the employer is making a decision and 
they usually are going to bring in somebody that has English 
capacity.
    So the thing about the United States is we are first in 
line, and I don't think that is going to change in the near 
future. These other countries that you mentioned are basically 
second in line. And what happens is that point system is 
following a different logic system, and I think part of our 
success has been that employers are in the driver's seat. The 
interesting thing is both Australia and Canada now have started 
awarding points for employee sponsorship. So I am not against 
that idea. It has some merit because it sets up selectivity, 
and I think that is what it is all about. But I think employers 
need to be left in the driver's seat.
    Mr. King. Our clock has run down, so I just thank you for 
your answer, and I just make the point that we are a country 
that has more people coming in right now than the jobs can 
accommodate. I appreciate your response, and I yield back.
    Mr. Gallegly. Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Nassirian, what fields are we deficient in with respect 
to American students?
    Mr. Nassirian. What is your definition of ``deficient?"
    Mr. Gowdy. Deficient enough that we would have a program 
where we needed to get outside help.
    Mr. Nassirian. I have no position. I can tell you that 
there are disciplines that are now disproportionately enrolling 
non-U.S. citizens and non-U.S. residents, but I don't know that 
that is--by the way, that does not--the fact that 80 percent of 
all doctoral degrees in a particular field are awarded to non-
U.S. residents does not, at least to me, necessarily suggest 
that there is a problem. To me it suggests that we have excess 
capacity possibly, and that we are exporting 80 percent of that 
capacity and essentially charging. But there is nothing wrong 
with that.
    So it seems to me, and again I am a civilian here, I am not 
an immigration policy person. To me, based on what I am 
hearing, the primary sort of evidence has to be employment-
based. I would hasten to add that some of the fields that we 
all worry about, Ph.D.s in mathematics, I think in the early 
mid-nineties there was a 13 percent unemployment rate for 
Ph.D.s in mathematics in the United States.
    So I don't know that any categorical answer would be the 
one you are looking for. Certainly the Ph.D. for mathematics 
from MIT, who was likely to be the next math prodigy, we would 
want to keep. The concern we have is if you just label every 
Ph.D. in mathematics is as good as every other Ph.D. And they 
should all stay, you may find mismatches between what the 
policy goals might have been and what the outcome ends up 
being. But I don't know that the definition of deficiency is 
one that you need to----
    Mr. Gowdy. I don't either, and that is why I asked.
    Mr. Lowell, when I hear science and math, is psychology 
science? What fields--and is there some strategy we should be 
pursuing stateside to incentivize our students to want to go in 
these graduate programs?
    Mr. Lowell. Well, you know, there is a lot of definitional 
issues here: What is STEM, what is core STEM, what are the 
social sciences? I don't know. I mean, that is something you 
would have to wrestle with in how you set up an admissions 
system. Psychology, a broad definition can be included in STEM. 
So can economists for that matter. And a lot of these actually 
require--as my discipline, which is demography--require a fair 
amount of math skill. But that is different from the natural 
sciences or engineering or IT. Does that kind of answer your 
question?
    Mr. Gowdy. It does. And I think both of you touched on 
potential pitfalls and areas in which abuse can be rife, and I 
am interested in shoring those up as well. So I would love it 
if you would extrapolate a little more if you want to, from 
your opening remarks on the areas where abuse is a potential, 
in whichever order you would like.
    Mr. Nassirian. Unless there is a multitiered review system 
before U.S. residency is provided for someone, our concern is 
that a purely credentials-driven system will be abused, A. It 
is almost a certainty.
    You know, the H1B category is currently being manipulated 
in ways that would make your head spin. The amount of forum 
shopping that goes on by immigration attorneys to essentially 
get a foreign credential evaluated as highly as possible would 
be stunning to most people, and it would be stunning to Members 
of Congress to know that there are no definitions of who is 
qualified to evaluate those credentials. I mean, I could hang 
up a shingle tomorrow and start to.
    So the system will be abused. The more you rely merely on 
credentials, without giving a lot more by way of definitions, 
explanations, and additional triggers, the more likely abuse is 
going to take place. Frankly, it won't just be additive abuse. 
It is not just that now a bunch of people may not have had a 
mind to come in, it is the kind of abuse that will also 
undermine the American higher ed system because it will 
compromise the integrity of all credentialing agencies because 
the race to the bottom will begin.
    Mr. Lowell. I am leery of singling out any particular 
occupation or field of study. It is clear, though, that 
talking, for example, about H1Bs--and I imagine even the 
permanent market--there is a segmentation of employers. You 
have some good actors and bad actors. And I have some thoughts 
about that. But, you know, mostly what we need are systems that 
screen appropriately to try to get rid of that problem. I am a 
fan of post-employment audit systems that give us a realtime 
measure of what abuse rates are. We know that abuse in H1Bs run 
at least 20 percent.
    In terms of specific fields of education, you know, that 
comes and goes any given year. I mean, petroleum engineers are 
really a hot commodity right now and I assure you their wages 
are outracing others at the moment. So it depends. It really 
depends year-to-year. And when you have soft labor markets, 
though, the potential for abuse is actually greater because 
workers and employers are trying to undercut the market a 
little bit.
    Mr. Gallegly. The time of the gentleman has expired.
    Ms. Jackson Lee.
    Ms. Jackson Lee. I would like to wait on my questioning. 
Thank you.
    Mr. Gallegly. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Nassirian, you actually raised a subject that I want to 
ask all my questions about, because I think it is the 
overriding point, although you disqualified yourself from 
answering my questions because you said you don't want to get 
into policy. So I will ask the other panelists my questions. 
But I appreciate your raising the subject of abuses and how 
abuses might undermine both the STEM visas as well as the 
educational programs themselves. That is what I want to go to.
    What I would like to do is ask the other three panelists 
five questions which I think you can answer yes or no. It all 
goes to whether or not you could support a policy that limits 
applicants to these qualifications.
    One, would you be comfortable limiting these individuals to 
graduates of research institutions that had been in existence, 
say, 10 or 20 years?
    Ms. Whitaker, do you want to answer first? What I am trying 
to get at is avoid the mail order Ph.D.s and masters, 
obviously. But would you be comfortable limiting individuals 
who received these visas to those who had graduated from 
research institutions in existence for some number of years?
    Ms. Whitaker. For some number of years?
    Mr. Smith. Yes. Let's say it is arbitrary, 10 or 20. It 
shouldn't be a big problem. If it is a problem, I will limit 
the number of years or something like that.
    Ms. Whitaker. But we would absolutely support research 
institutions that are well-established and top-ranking that 
have been in existence for a number of years.
    Mr. Smith. That is my point. Okay. Mr. Wadhwa?
    Mr. Wadhwa. I think that is a sensible way of doing it.
    Mr. Smith. Mr. Lowell?
    Mr. Lowell. The devil is in the details, but yes.
    Mr. Smith. In general. This isn't a trick question. I am 
just trying to get some general parameters that we might 
explore.
    What about would you be comfortable with requiring the 
individuals to have a job offer?
    Ms. Whitaker. Absolutely.
    Mr. Wadhwa. Yes, except for the start-up visa issue. If 
they start their own company, which in Silicon Valley you have 
to realize the energy and how these kids who graduate from 
Stanford and Berkeley start companies which become the next 
Facebook. With that exception, yes.
    Mr. Smith. Good point. Mr. Lowell.
    Mr. Lowell. Yes, job offers should always be primary, and I 
am with Vivek.
    Mr. Smith. What about this? Would you be willing to limit 
them to, say, have some academic minimum standard, maybe top 
half of their class, grade point average B or above, something 
like that? Some academic qualification?
    Ms. Whitaker. We do that anyway as a company, so certainly 
we already look at grade point average and require that.
    Mr. Smith. Okay. Mr. Wadhwa?
    Mr. Wadhwa. I think the employer should judge that, not--
the employer should judge that. Because, you know, I was an 
average student. I don't know about you, but I wasn't at the 
top of my class. Yet I did pretty well.
    Mr. Smith. Don't ever confess that publicly.
    Mr. Lowell?
    Mr. Lowell. Yes, I think some kind of minimum is probably a 
good idea.
    Mr. Smith. Okay. What about asking for a----
    Mr. Nassirian. May I weigh in on this one? I would urge you 
not to do it, because what it does, we run into this with 
scholarship programs, you end up counterintuitively rewarding 
lower standards because you get a higher GPA at an institution 
that is less rigorous. So I think the point that--yet I 
recognize where you are going.
    Mr. Smith. But if you are limiting it to established 
institutions, research universities----
    Mr. Nassirian. They are not all the same.
    Mr. Smith. No, but they are all fairly competitive.
    Mr. Nassirian. But generally what you do is you induce a 
student who will go to school A, leading research institution, 
school B, second tier. You go to second tier.
    Mr. Smith. You really think they would try to game the 
system like that? Okay. All right. Three out of four there. 
What about committing to stay in the United States for 5 years?
    Ms. Whitaker. I think it is the intent of all of the people 
that we are looking at is to stay in the United States.
    Mr. Smith. Well, that is what we hope. We hope they are 
rightly motivated. That may not always be the case. People do 
game the system.
    Ms. Whitaker. I think there are business conditions where I 
can imagine somebody had a green card, yet we wanted them to go 
for business reason to work temporarily in another country. So 
it is hard to say for business purposes that we would 
absolutely say stay in one country. We are a global company and 
we do tend to----
    Mr. Smith. The big argument for giving them visas is we 
hope and expect them to stay and contribute. And if they are 
not going to, why give them the visas? But anyway, Mr. Wadhwa, 
would you be comfortable with 5 years?
    Mr. Wadhwa. We want people to stay here, but you have to 
realize right now the government, when you interview them at 
the U.S. consulate, you ask them, do you plan to stay? If you 
answer yes, then you won't get a visa. It is the exact opposite 
of what we are talking about right now. So you really can't 
force people to stay.
    Mr. Smith. No, you can't force them. All you are doing--and 
it may even be unenforceable.
    Mr. Wadhwa. A pledge would be great. If we change the 
system so we try to bring in people who want to be permanent 
residents, it would be much better than what it is today.
    Mr. Smith. Mr. Lowell?
    Mr. Lowell. Do I understand the question? Do we want to ask 
them to stay 5 years?
    Mr. Smith. Yes. Commit to 5 years, yes.
    Mr. Lowell. I am not crazy about that either.
    Mr. Smith. Okay. That makes me question what your motive 
is, but we will leave that alone for right now.
    The last one is--which was brought up at the end, I think, 
Mr. Lowell, by you--would you be comfortable limiting them to 
graduate degrees in natural sciences, engineering, or 
information technology?
    Ms. Whitaker. Yes. You said engineering, right?
    Mr. Smith. Information technology, natural sciences, or 
engineering.
    Ms. Whitaker. Engineering, yes.
    Mr. Smith. Okay. Mr. Wadhwa?
    Mr. Wadhwa. If that is all we could get, I would say yes, 
if that is the best we could do. I would want much more, 
because I know great marketing people who become great CEOs. 
But if that is the best we can do, then that is a good 
compromise.
    Mr. Smith. Maybe that is the exception to the rule, though.
    Mr. Lowell?
    Mr. Lowell. I think I am in favor of that, sure. I think I 
am in favor. Again, I must be having problems hearing you. Did 
you differentiate Ph.D.s and masters by field?
    Mr. Smith. Yes.
    Mr. Lowell. Yes, I think that is reasonable.
    Mr. Smith. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr. Gallegly. The time of the gentleman has expired. Ms. 
Jackson Lee?
    Ms. Jackson Lee. Mr. Chairman, with your indulgence, I 
would appreciate one more Member and then I would desire to 
take my 5 minutes.
    Mr. Gallegly. Mr. Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for being here.
    Ms. Whitaker, I appreciate you being here. I have always 
been a great fan of Texas Instruments because probably the 
second greatest invention ever made was the transistor radio, 
and I still have one somewhere, hidden. But anyway, I am 
concerned about a couple of things.
    First, the immigration system we have I think needs to be 
overhauled. You set it aside and start over with it. The 
lottery system, where we let people come in because they win 
the lottery, is the silliest thing we have ever come up with. 
We ought to let people in the United States based upon the fact 
that we need them.
    One concern I would hope we would get an answer to is, I 
get this complaint from parents that their kid can't get into a 
university because there are foreign students that are getting 
in. And this university takes the foreign student not because 
they are smarter, but because that country is paying cash and 
they are paying out-of-state tuition, and this is just an in-
state tuition person who may need a scholarship to go to 
school. I get that complaint.
    Whether it is valid or not, I want you all to address the 
issue of universities letting them in because they are paying 
more money than Americans. I am concerned about the fact that 
Americans are not seeking these degrees.
    So let me start with Ms. Whitaker. I know you speak for TI. 
Do you think we are doing enough to ensure that qualified 
Americans are considered for these jobs they have at Texas 
Instruments, we as a society, as a country?
    Ms. Whitaker. As a country are we doing enough to have 
students in these programs?
    Mr. Poe. Americans.
    Ms. Whitaker. Americans.
    Mr. Poe. ``Mericans.''
    Ms. Whitaker. You know, that is something for which I think 
all corporations have a responsibility. I know at Texas 
Instruments there are a lot of things that we are doing. I 
think we can always do more, but there are a lot of things we 
are doing not only from TI, but the TI Foundation. I am a 
member of the TI Foundation board. But we have programs where 
we are focusing on the students to try to get more students in 
K through 12, and everybody does have a handout that we 
submitted, but to get more students focused on engineering, on 
science and math, throughout their whole education.
    There are programs that we have where we are bringing in 
teachers, or helping fund teachers, because we think teachers 
are some of the most critical people in keeping children and 
getting children interested. We have a huge number of employees 
that will go to schools. I did that after I got my bachelor's 
in electrical engineering. I was quickly recruited to go and 
visit schools and talk to kids about math and science and why 
it is important, because I think it starts at a very young age.
    We also do things like advanced placement incentives to try 
to keep kids or get kids interested just to take the test, 
because studies have shown that if kids will take those 
advanced placement tests in math and science, then they will do 
better in school.
    So there are a lot of different programs, bringing teachers 
into inner cities through Teach for America, bringing teachers 
in to teach in schools and stay there and try to make 
commitments to stay in those schools in inner cities, to just 
be there and help kids and help them be interested in math and 
science.
    Mr. Poe. Let me ask you this: Is it a problem that kids 
aren't interested in science, or that our education system is 
so bad they don't get a good science background, therefore they 
don't get into the universities and you don't hire them? Or is 
it a combination of this?
    Ms. Whitaker. Well, one of our biggest challenges isn't so 
much that kids don't go into engineering. But where we have our 
challenge, which we are talking about today is really in our 
Ph.D.s and our masters. We have bachelor's degree graduates in 
electrical engineering, a majority American. That is who we 
hire. As I said earlier, we don't sponsor green cards, or 
sponsor H1Bs for foreign students who have just received 
bachelor's, because we don't have to. It is getting them to go 
to that next level. It is the Ph.D. and the master's degree 
area that we have a challenge. More than 50 percent of these 
students are foreign nationals.
    Mr. Poe. So why don't they want to go to the next level? I 
guess that is my question. Why don't they want to go to the 
next level? They are not qualified education-wise or motivated. 
Which is it, or both?
    Ms. Whitaker. I don't really know the exact reason why they 
don't. I would assume it is some of all. I would assume it is 
because they want to get out and go get a job versus staying in 
and getting the next degree.
    Mr. Poe. How big a problem--I am sorry, I am just limited 
on time. How big a problem is this: Somebody in a foreign 
country comes to the United States. They go to one of our 
universities. They graduate. They have a Ph.D. in one of these 
areas. They go to work for you and they work for you for a 
period of years. They do real good work. We send them back home 
because they can't stay in the country, and then they go 
compete against us in some foreign country.
    Ms. Whitaker. That is a huge problem. That is what we are 
trying to avoid. We are absolutely trying to avoid educating 
and training students in the United States and sending them 
home to go compete against us.
    Mr. Poe. We don't want that to happen.
    Ms. Whitaker. We would love to have them here, to be on our 
team and play for Texas Instruments, instead of going to play 
for somebody else. That is exactly what we are trying to do.
    Mr. Poe. Thank you, Mr. Chairman. I yield back.
    Mr. Gallegly. The time of the gentleman has expired. Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much. Ms. Whitaker, 
welcome. Coming from Texas, I am well aware of the legacy of 
Texas Instruments. I have a series of questions that I would 
like you to help me with.
    First of all tell me, if you can, by numbers or estimates 
of the numbers of jobs an immigrant who would be able to stay 
under any kind of visa in these particular areas--science, 
technology, engineering, math--might create at Texas 
Instruments. What I am saying is an immigrant with the 
expertise you say they need, how many jobs would they generate?
    Ms. Whitaker. We have today roughly 400 people who are in 
our green card process, and so that is people who today who are 
currently Ph.D.s, master's degree students, or employees with 
electrical engineering degrees that we employ. They have been 
waiting for up to a decade in some cases for a visa. We wish 
they could stay here and be permanent employees and they wish 
they could stay here and be permanent employees.
    Ms. Jackson Lee. I don't think you heard my question. So 
you have 400 of them. How many jobs have they created by their 
existence and the products they are producing, creating jobs 
out of their existence here?
    Ms. Whitaker. You know, it is not something that we track 
that we can tell exactly that somebody's new technology, new 
device, new IP, has created X number of jobs. It is not 
something that you can exactly measure. But it is certainly the 
way that we do create jobs through intellectual property, 
through patents, through new devices, new technology, that our 
customers then buy. And that is exactly what we do get from our 
master's and our Ph.D. students or employees that we have.
    Ms. Jackson Lee. Well, I am on your side and I have been on 
your side, but I think it is valuable for our Silicon Valley 
friends and for you to begin making that kind of analysis. You 
are a smart enough company to be able to do so. It is very 
difficult now to talk about these visas when we have a 
population of Americans that are unemployed. They may not be 
trained appropriately, but we have a generation of young people 
that we are trying to get in sync. And I know Texas Instruments 
has done a lot in that area. So I am very interested in that, 
so let me pursue that.
    What efforts have you made in partnership with historically 
Black colleges and Hispanic-serving colleges to actually steer 
our population of Americans into those particular areas, and 
what results are you getting? How many African American Ph.D.s 
do you have, how many Latino Ph.D.s do you have coming out of 
U.S. universities?
    Ms. Whitaker. Actually, it is one of the areas that we are 
quite proud of at Texas Instruments, is that we have a focus on 
hiring at universities above census, and we do just that. So we 
hire above census. One of the challenges that we have, and even 
though in the United States we may have 15 percent African 
American and 15 percent Hispanic in the general population, in 
electrical engineering that number is less than 5 percent. So 
not only do we need to do what we are doing, which is hiring 
above census, we also need to do things, which we are, which is 
actually helping students----
    Ms. Jackson Lee. Track into that area.
    Ms. Whitaker. Go into that area.
    Ms. Jackson Lee. Because I have a short period of time. So 
do you have a number that you can give me to let me know either 
how many you have in the pipeline or how many you have on 
staff, Ph.D.s in this area, for Latinos and African Americans?
    Ms. Whitaker. I actually don't have.
    Ms. Jackson Lee. Would you be kind enough to provide that 
back to the Committee, please, for my edification? I would 
appreciate it.*
---------------------------------------------------------------------------
    *The Subcommittee and Rep. Jackson Lee received a response from 
Gene Irisari, Director of Government Relations, Texas Instruments, to 
Rep. Jackson Lee's question. That response is not included in this 
printed record.
---------------------------------------------------------------------------
    Let me go to Mr. Wadhwa, because I am very excited about 
new starts. I think you are absolutely right about new starts. 
We should not leave them out, young bright individuals coming 
out with visas or if they have had academic visas. I would just 
ask the impossible, which is how do we mix those new-start 
geniuses with American students? Some of it, their alliances 
have already been made because they are in school together. But 
how else can we do so?
    Mr. Wadhwa. I wrote an article for the Washington Post 
which was titled ``Why We Need a Black Mark Zuckerberg.'' It 
talked about the fact that Blacks are being left out all about. 
It was written about the dearth of women. Women are being left 
out altogether. It is a systematic problem in American society. 
It has nothing to do with immigration. This is a problem with 
attitudes in society, with the way we bring up children.
    We have to look at the system. We also have to look at--you 
know, Indians right now constitute--one out of every start-up 
in Silicon Valley is started by an Indian. Thirty years ago it 
was zero. How did we go from zero to 15.5 percent? We set up 
networks and we started mentoring and helping each other.
    We need to set those up now for the Blacks and for the 
Latinos and for the women, and start networking and helping 
each other. They have access to it, but it is a different 
discussion than immigration. I would love to be able to work 
with you on that if you need to.
    Ms. Jackson Lee. Let my just finally say I think this visa 
is valuable to Mr. Smith. I guess he is not here. I would not 
leave out institutions, for example, like Texas Southern 
University. It is not a Harvard or a Yale or a Berkeley or a 
Stanford, but it has some very strong science programs, 
pharmaceutical programs and Ph.D. programs.
    So if we are going to do this, we can't try to backdoor it, 
meaning that we want to be hard on immigration but open to 
STEM-type visas. We have to open it to universities whose 
programs are strong. I think our procedures need to be in 
place.
    Mr. Chairman, I think we need to, however we come together 
on writing some sort of focus, we need to be able to generate 
or suggest that for these individuals that stay here, jobs are 
created. That is attractive to the American public. It is 
attractive overall that we create jobs by the individual genius 
that we retain here in the United States. And whether we hold 
them for 5 years, I think there should be some carrot, if we 
put incentive language in to say we would like a 5-year 
commitment. We have done that in the Peace Corps and everywhere 
else, so we should be able to do it with that kind of 
legislation.
    I yield back.
    Mr. Gallegly. The time of the lady has expired.
    Mr. Ross.
    Mr. Ross. Thank you, Mr. Chairman.
    Ms. Whitaker, Mr. Poe touched on this a little bit. I am 
from Florida and we have got 12 universities and community 
colleges there. And we make, of course, a substantial 
investment in some of these students, and then we see them 
leave, not only leave the State; after awhile they leave the 
country because their visas have expired.
    I am sure Texas Instruments has made an investment of some 
significance, whether by way of scholarships or whatnot, in 
order to try to sort of incentivize to get these students to 
get their advanced degrees and then, of course, to try to keep 
them here.
    My concern is, what if we do nothing? What if we as a 
Congress do nothing and do not increase these STEM visas? Is 
there a business plan that you all have discussed or considered 
that you will have to follow in order to meet your needs?
    Ms. Whitaker. We don't have a business plan prepared for 
not being able to hire half of the graduates that are coming 
out of universities. Unfortunately, we don't have a plan for 
that. We think it is absolutely critical to be able to hire 
half of the graduates coming out of universities at the Ph.D. 
and the master's degree level. And several people here have 
commented on unemployment, or we have available people. In 
electrical engineering, the unemployment rate is 3.7 percent, 
and so it is not an easy job to----
    Mr. Ross. But in order to maintain your competitive 
advantage on a global basis, would you have to consider maybe 
even relocating some of your R&D overseas, in a country that 
has a more acceptable immigration policy?
    Ms. Whitaker. Yes, absolutely. Like I say, we don't have a 
plan for it, but that is exactly what you have to do, because 
you have to be able to get the best and brightest. Our company 
is all about innovation. It is all about developing new 
electronic devices for customers to use. You would have to go 
to wherever you had to go to get the talent. We would love to 
get that talent here. We would love to get that talent out of 
U.S. universities. And they are here, and we have trained them 
and we would love to keep them, but we will have to go wherever 
the best and brightest talent is.
    Mr. Ross. Because it is your desire to not lose your 
competitive advantage and you will do what is necessary to 
maintain that and increase that if you can.
    Ms. Whitaker. Absolutely.
    Mr. Ross. I don't know who best to ask this, maybe Mr. 
Lowell. Based on the trend over the last 10 years, we have seen 
a real number increase of STEM visas being requested and we 
have seen a decrease in citizens, American citizens obtaining 
these advanced degrees, these master's and Ph.D.s in the STEM 
areas, or can you say?
    Mr. Lowell. It is a bit of a roller coaster. You know, STEM 
degrees crashed after 2001 and domestic enrollments went up. 
Some people just think that was demographic growth, though. 
Recent changes are different. It has been a bit of a roller 
coaster. So I don't think you can draw any easy conclusions.
    Mr. Ross. So to follow up maybe on what Mr. Poe was saying, 
our American students, are they necessarily declining in 
application for these advanced degrees, or are we seeing a 
greater influx----
    Mr. Lowell. No. In terms of the student pipeline, it has 
been pretty steady. In fact, it has seen a slow growth over the 
last 15-20 years, in fact for a long time. And that is likely 
to remain the case for the immediate future, you know, 10 years 
or so out. The challenge is, of course, that the composition is 
changing----
    Mr. Ross. We have seen an increase in demand based upon the 
advancement of technology, the advancement of research and 
development?
    Mr. Lowell. Employment in this area has been pretty flat 
for some time, and the BLS keeps on projecting large increases 
and they haven't happened. We have had back-to-back recessions, 
to be fair. So it is not--I hate to be academic about it.
    Mr. Ross. No, that is okay. You are one, and that is a good 
thing.
    Mr. Wadhwa, 1980, you come over here. You decide to stay. 
You become an entrepreneur. You create jobs, two software 
companies. If you had come over here today under these 
circumstances, could you still do it as though you did it 30 
years ago?
    Mr. Wadhwa. Right now today, I would be waiting 70 years to 
get my green card. In the meantime I wouldn't be able to start 
a company. And more likely than not, if I was one of my 
students, I would be looking for a job back in India or in 
Singapore or even in Chile. Chile is now trying to get all of 
our American entrepreneurs to come over there. They are giving 
them $40,000 just to come and start a company there.
    Mr. Ross. So while we are looking to try to create private 
sector jobs and incentivize entrepreneurs, we are taking this 
segment of the STEM visas and moving them aside.
    Mr. Wadhwa. In the 1 million people in the backlog, we 
probably would have tens of thousands starting companies if 
they had a choice today. We won't give them visas. This should 
be a no-brainer.
    Mr. Ross. I agree.
    Mr. Wadhwa. Anyone who starts a company, you know, they are 
here legally. There is no dispute about it. They are educated. 
American companies have hired them, so they are top-notch 
talent. They are filing a quarter of America's patents. Well, 
anyone who starts a company, 3 years from now if you are 
employing five Americans--and again I am talking about 
Americans--you get a green card. What could be simpler than 
that? Why don't we agree on that? Both sides agree to it. Why 
aren't we making it happen?
    Mr. Ross. Mr. Lowell, my time is up.
    Mr. Lowell. Yes, quickly. I mean, to be on the other side 
of this, immigrants are at least 25 percent of a lot of these 
STEM-granting kinds of fields, so it is maybe not surprising. 
Their proportion has been increasing and their proportion is 
likely to keep increasing at current levels of migration. That 
is my basic message. I am not arguing to restrict numbers. I 
think we need to reshift the way in which they come in.
    Mr. Ross. Thank you. I yield back.
    Mr. Gallegly. I thank the gentleman from Florida.
    The Chair would now recognize the gentlelady from 
California, Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman, and Members. 
I am sorry I couldn't get here a little bit earlier, but I was 
anxious to get here despite being held up, because I think this 
is such an important discussion.
    You must know that my office has been involved in putting 
together roundtables with industries that are involved in the 
hiring of STEM graduates, and we have programs that are 
attempting to attract young people and to guide them into the 
STEM pipeline. So many of us are very, very concerned about our 
lack of ability in this country to educate in the STEM advanced 
degree programs, and we are anxiously looking for a solution.
    Let me just say that I understand the business community's 
need to hire STEM graduates and to retain them, and I have 
great respect for the mission and the jobs that must be done in 
these businesses, and I have great respect for those students 
who persevere and who come and who get trained. And I know that 
this whole discussion is about retention and allowing them to 
stay in the United States and to avoid having to go through 
such a rigorous process in order to do it.
    My focus is on what we can do to educate our citizens right 
here in the United States, and particularly minorities. We are 
way behind, African Americans, Latinos, way behind in educating 
young people to be prepared for the high-technology jobs, for 
all of those jobs where you have to have this kind of STEM 
education.
    So, while I am appreciative for some of what I know some 
industries are doing, much more has to be done both by the 
government and the private sector. As far as I am concerned, 
every student that wishes to be trained or developed in the 
STEM pipeline should be able to go to college and get advanced 
degrees without having to pay. They just should be able to do 
that. And I am not even talking about loans that they are 
saddled with for the rest of their lives. I am talking about if 
we are serious in this country about educating, we will make it 
possible for our students to get this education, regardless of 
whether or not they are able to afford it.
    But the industries themselves, I know that you are doing 
some things, but you got to do more. It is easy if you can hire 
those who have been trained and you can retain them in the 
United States, and, as you are being accused oftentimes, you 
can pay them maybe less than you would be paying American 
citizens. I don't know if that is true or not, but that is 
alleged, that there is a little exploitation going on here. But 
enough is enough, and we have got to do better. We must do 
better.
    It seems to me that if any of the industries--Texas 
Instruments, for example, why don't you have your own private 
school? Why don't you have a way by which you not only train, 
but tailor people coming through the STEM pipeline or people 
who have been educated, tailor them to the jobs that you have 
and what your needs are going to be? Why don't you invest in 
your own education and opportunities for people who want to 
work in the industry to be educated and trained? Why don't you 
do that?
    Ms. Whitaker. We do. I guess what I would say is I agree 
wholeheartedly with you that we need to do both, that we need 
to----
    Ms. Waters. Tell me about your school.
    Ms. Whitaker. We do invest. We don't have a school. What I 
mean when I say I agree wholeheartedly is that we need to do 
both. We need to hire the people coming out of schools today 
and we need to better prepare people and encourage people who 
are not going to get those degrees, Americans who are not going 
to get those degrees, underrepresented groups that are not 
going to get those degrees. We need to better prepare them.
    Ms. Waters. Well, what are you doing? Are you doing 
scholarships? Are you contributing to educational institutions? 
How are you helping?
    Ms. Whitaker. We have a wide range of programs. We have 
invested over $150 million in the last several years on these 
programs, things like advanced placement education, incentives 
to students, incentives to teachers to encourage students, 
mainly in the Dallas School District, to get into math and 
science. We are funding teachers to come into Teach For America 
and through You Teach to bring more and better qualified 
teachers to the local schools in order to help students.
    We are sending our employees to the local schools to help 
understand what engineering is, to help them get excited about 
and learn more about math and science. We have a wide range of 
programs, something called Visioneering, where we bring 
students and we bring engineers and we bring teachers all 
together so they can learn about what math and science is.
    So there are a lot of programs that we are doing today, but 
I absolutely agree that there is more to do. We don't have our 
own school because it is not our core competency. Our core 
competency is developing and designing integrated circuits or 
computer chips, or chips, as people might call them.
    Ms. Waters. Yes. But if you don't have people to come to 
work and do what you need them to do, you can have your core 
mission but you may not be able to accomplish it because there 
are some of us who are not going to support retention or some 
of us are going to look at, you know, these visas and say, you 
know, enough is enough. America has got to commit itself to 
training and development. So what do you do then?
    Mr. Gowdy. [Presiding.] The gentlelady's time has expired. 
I thank the gentlelady from California.
    The Chair would now recognize the gentlelady from 
California, the Ranking Member of the Subcommittee, Ms. 
Lofgren.
    Mrs. Lofgren. Thank you for letting me make some concluding 
comments, because I think that this may be an opportunity where 
the ``battling bickersons'' between the parties can come 
together and agree on some things, and I think that is a very 
hopeful thing.
    As I was listening to Mr. Smith--I am sorry he had to go to 
another meeting--I was thinking, that is in my bill. That is in 
my bill. I mean, to limit this to research institutions is 
essential. Issues have been raised about how to do that, and it 
is helpful but we can deal with that.
    Yes, of course, you have to have the job offer. That is in 
the bill I have introduced as well. Yes, there needs to be some 
minimum standards. And in fact, there is a concern about grade 
inflation that was expressed to us by the universities. But we 
don't need the D students. There needs to be some standards 
here.
    And, yes, we want people to stay here. And Mr. Wadhwa, you 
are exactly right. We have it backwards. In the bill we change 
student visas to dual intent. The last thing we want to do is 
have the smartest students in the world come here and promise 
never to stay. That is just backwards. So the bill that I have 
introduced would change that.
    The definition of who we need I think is something we need 
to work on. But I think we are all going to agree, electrical 
engineering is going to be in that category. And I think it is 
worth looking at the numbers.
    Now, master's degrees--this is from 2009, I think it is the 
latest figures--foreign students got about 7,000 master's 
degrees in the United States, and a little over 1,300 Ph.D.s. 
Now, not every one of those institutions would qualify as a 
research institution and maybe they didn't all get Bs either. 
And then not all of them would necessarily want to stay. So 
this is not a huge number of individuals we are talking about, 
but it is a key group that we are talking about.
    I very much agree with my colleague from California, Ms. 
Waters, that we need to do a better job of investing in 
American students. And one of the things in the bill that I 
introduced is an allocation of fees, visa fees. It comes up to 
$500 million a year that would be put into STEM education for 
American students. I don't see these as alternatives. I mean, 
if we have the Ph.D. recipient from MIT who is going to go out 
and create companies, of course we want to keep that person 
here. And it is not instead of educating American students, it 
is both, to make a prosperous country.
    So I just think we have an opportunity here to make 
progress. I am grateful to be permitted to make these 
additional comments and I look forward to working with all the 
Members of the Committee as well as our wonderful witnesses to 
have a success for America through job creation and 
immigration.
    I yield back.
    Mr. Gowdy. I thank the gentlelady from California. On 
behalf of all of us, we would like to thank our witnesses for 
your expertise, for your collegiality toward one another, and 
for your helpfulness to the Members of Committee.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that their answers can be 
made part of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    With that, I thank the witnesses again, and this hearing is 
adjourned.
    [Whereupon, at 3:33 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
